Before the Committee on Oversight and Government Reform
United States House of Representatives



For Release on Delivery
Expected at               Weaknesses in DOT's
                          Suspension and Debarment
10:00 a.m. EDT
Thursday
March 18, 2010
CC-2010-036
                          Program Limit its Protection
                          of Government Funds




                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Committee:

Thank you for inviting me here today to discuss our recent report on the Department of
Transportation's (DOT) Suspension and Debarment (S&D) Program. 1 Making timely
S&D decisions and promptly reporting them is critical to helping ensure that government
contractors who have acted unethically do not receive additional government dollars.
DOT is responsible for overseeing significant contract and grant obligations to meet its
mission needs. These obligations averaged $56 billion annually over the last 4 years. It
is imperative that DOT's stewardship of these taxpayer dollars include adhering to
Federal S&D regulations and policies, which permit agencies to exclude parties found to
be unethical, dishonest, or otherwise irresponsible, from receiving contracts and grants
involving Federal funds.

Over the past 2 years, including our May 2009 Advisory, 2 we reported weaknesses in
DOT’s S&D Program that increase the risk of awarding contracts and grants to
irresponsible contractors—a risk that escalated with the disbursement of $48 billion to
DOT under the American Recovery and Reinvestment Act (ARRA) of 2009. Today, I
would like to discuss the delays in DOT's S&D decisions and reporting, and the lack of
effective controls for managing and overseeing its S&D Program. My testimony is based
largely on our work at the Federal Highway Administration (FHWA), Federal Aviation
Administration (FAA), and Federal Transit Administration (FTA), which collectively
represented over 90 percent of DOT’s S&D activity from calendar years 2005 through
2008.


IN SUMMARY

Significant delays in DOT's suspension and debarment decisionmaking process have
given unscrupulous contractors ample opportunity to bid for and receive contracts. On
average, it took over 300 days to reach a suspension decision and over 400 days to reach
a debarment decision. These delays are largely due to lengthy and unnecessary reviews
conducted before deciding cases and a lack of priority assigned to DOT’s S&D workload.
At the same time, DOT’s management controls are not adequate to safeguard the
Department's efforts to exclude prohibited parties that agencies must suspend or to
propose debarment. A weakness surrounding DOT's main S&D policy is its inability to

1
  DOT's Suspension and Debarment Program Does Not Safeguard Against Awards To Improper Parties, ZA-2010-
  034, January 7, 2010. OIG reports and testimonies can be viewed on our website at: www.oig.dot.gov.
2
   See U.S. Department of Transportation, Office of Inspector General, ARRA Advisory – DOT’s Suspension and
  Debarment Program, AA-2009-001, May 18, 2009. This includes our reports on top management challenges
  facing DOT, see DOT’s Fiscal Year 2009 Top Management Challenges, PT-2009-005, November 17, 2008 and DOT’s
  Fiscal Year 2010 Top Management Challenges, PT-2010-008, November 16, 2009.


                                                                                                          1
clearly define that DOT needs to suspend—or propose debarment—of parties within a
required 45-day limit. DOT's S&D Program is also limited by the absence of strong
program oversight. The cumulative effect of these weaknesses increases the risk that
DOT and other agencies will award contracts and grants to parties that DOT will
ultimately suspend or debar.

BACKGROUND

In fiscal year 2008, the Federal Government’s contract obligations exceeded $500 billion
to over 160,000 contractors. Suspensions and debarments—actions taken against parties
found to be unethical, dishonest, or otherwise irresponsible--are intended to protect this
significant investment by excluding irresponsible parties from receiving contracts and
grants involving Federal funds for a specific period of time. One agency’s S&D action is
applicable Governmentwide, a feature aimed at improving the strength of this tool. (See
exhibit A at end of this statement for key elements of these policies.) Within DOT, the
Office of the Secretary (OST) and DOT’s nine Operating Administrations (OA) are
responsible for managing their own S&D programs. Our Office of Investigations
supports these efforts by referring information on indictments and other court actions to
OAs for use in their S&D decision-making.

In 2005, DOT revised its S&D policy, Governmentwide Debarment, Suspension and
Ineligibility, in part, after learning it awarded a contract to a company under our
investigation. The revisions aimed to strengthen DOT's S&D policies and add
accountability to the S&D Program by, for example, establishing a 45-day deadline for
making S&D decisions, reporting decisions to the General Services Administration, and
requiring an annual report on all S&D actions. In addressing our 2006 National Fraud
Prevention Conference, then Secretary Mineta noted that the revised policy represented
“zero-tolerance" for those who try to short-change the American people and urged DOT
administrators to enforce it vigorously.

DOT is required to report excluded parties in the General Services Administration's
Excluded Party Listing System (EPLS), a web-based system to track S&D decisions
Governmentwide. EPLS includes information such as the contractor’s name, address,
and identification number; the cause for suspension or debarment and the associated
period of exclusion; and the name of the agency that took the action. DOT is responsible
for reporting accurate data within 5 work days of the action’s effective date.


LENGTHY DELAYS IN MAKING AND REPORTING S&D DECISIONS
INCREASE RISK OF AWARDING CONTRACTS TO IMPROPER PARTIES

The Department's OAs generally do not meet DOT’s deadlines for deciding and reporting
S&D cases. Delays are largely due to unnecessary and lengthy reviews taken before

                                                                                        2
deciding cases and a lack of priority assigned to DOT’s S&D workload. Reporting of
DOT's S&D decisions was also untimely. Nearly half of the S&D decisions we reviewed
exceeded the Department's 5-day requirement for entering such decisions into EPLS.
These delays not only put DOT at risk of awarding contracts or grants to parties who
should be suspended or debarred, but they create funding risks that could impact the
effective and efficient use of funds—especially those awarded under ARRA. This risk
extends to other Federal agencies as well because agency S&D decisions apply
Governmentwide.

Lengthy Decision Process Poses Significant Risks

About 70 percent of DOT's suspensions we reviewed took more than the required 45
days, and the average processing time was 301 days. Debarment decisions were also
untimely and took on average 415 days. The risks posed by these delays are illustrated
by the following examples:

• Recovery Act funds were awarded to affiliates of parties under indictment: In
  the 10 months after FHWA received our September 2008 referral, the Commonwealth
  of Kentucky used ARRA funds to award contracts to companies whose officials were
  affiliated with parties that FHWA ultimately suspended. Specifically, between June
  and August 2009, the Commonwealth of Kentucky awarded $24 million in ARRA
  funds to companies that FHWA—the largest recipient of ARRA funding in DOT—
  could have immediately suspended under DOT’s S&D policy and Code of Federal
  Regulations. Our September 2008 referral to FHWA was based on an indictment
  charging company officers and a state government official with bribery, conspiracy,
  theft from a government agency receiving Federal funds, and obstruction of justice.
  In July 2009, FHWA eventually suspended the individuals cited in our referral, two of
  whom were affiliated with the companies awarded ARRA contracts.

• Delayed debarment action prompted the Environmental Protection Agency
  (EPA) to assume FHWA's lead in joint investigation: FHWA and EPA conducted
  a joint investigation of a contractor who had been indicted in 2004 and then pled
  guilty in 2005 to conspiracy, bribery, and unlawful storage of hazardous materials. 3
  While FHWA acted as the lead agency, it did not take timely action to suspend the
  indicted contractor. For more than 2 years after the company pled guilty, FHWA’s
  debarment action remained “pending.” Ultimately, EPA debarred the company and
  its principals in mid-2007. According to an FHWA suspension and debarment
  official, the case “slipped through the cracks,” and FHWA needed to reevaluate
  supporting information to close the case. In September 2009—27 months after EPA’s


3
    According to 2 CFR, 180.620, when more than one Federal agency has an interest in a suspension or debarment, agencies may
     consider designating one agency as the lead agency for making the decision.

                                                                                                                           3
   debarment—FHWA administratively revised its records to show this case was closed.
   DOT OAs generally lack follow-up procedures to provide closure to their open cases.

Unnecessary Reviews and Insufficient Prioritization Contribute to Untimely
S&D Decisions

Federal regulations and DOT’s Order provide clear criteria for DOT to move swiftly on
investigative referrals. The criteria state an indictment is adequate evidence to support a
suspension, and a conviction or civil judgment is adequate evidence to support a
debarment. However, OAs frequently perform extra reviews in deciding their S&D
cases, such as researching and gathering additional information on the case, analyzing the
competitive impact of the case on Federal-aid programs, and developing
recommendations to suspend or debar the party. These reviews are generally conducted
without deadlines or monitoring. According to FHWA, which processes the majority of
S&D cases in DOT, the additional reviews allow parties—many of which are small
businesses that depend solely on the Federal Government for work—an opportunity to
show why they should not be suspended. Yet Federal regulations provide for suspended
parties to contest a suspension or take remedial measures to get the suspension lifted. By
unnecessarily prolonging time-sensitive suspension and debarment decisions, FHWA
makes other DOT and Federal agencies vulnerable to doing business with fraudulent or
unethical parties.

Insufficient prioritization of S&D workload can further prolong S&D decisions. Officials
and support staffs assigned to do S&D work told us such work is performed as a
collateral duty, which competes with their other duties and responsibilities.           For
example, attorneys responsible for S&D are pulled from their S&D duties to perform
high profile litigation and other assignments their OA determined to be a higher priority.


Fewer Than Half of S&D Decisions Met DOT's and Federal Reporting
Requirements

Both Federal regulations and DOT’s Order require that S&D actions be entered into
EPLS within 5 work days after an action’s effective date. However, our review showed
almost half of the 132 EPLS S&D entries between June 2005 and July 2008 were made
after this 5-day requirement. DOT data entry exceeded the requirement from 3 to 864
days, and 14 cases took over 100 days.

Several factors contributed to these delays, which affect OAs as well as DOT. In one
case, FTA did not provide documentation on one business and four individuals it
debarred in November 2006 until March 2007. When we brought this condition to the
attention of FTA officials, they stated that the delay was due to staff misplacing
paperwork on these decisions. Although no new contracts or grants had been awarded to

                                                                                         4
the business or individuals during this period, this example highlights how DOT and
other Federal agencies could be vulnerable to awarding new contracts or grants to
unethical parties. One DOT representative also noted some submissions lacked data
elements required by Federal regulations and were returned to OAs for completion.


DOT LACKS ADEQUATE MANAGEMENT CONTROLS AND
OVERSIGHT TO ENSURE S&D PROGRAM INTEGRITY

A lack of strong management controls—those that emphasize accountability, monitoring,
and clear organizational roles and responsibilities—has further weakened DOT’s S&D
Program. Such weaknesses include differing OA interpretations of DOT’s 45-day policy
for making S&D decisions and a lack of reliable EPLS data. In addition, delegation of
S&D program management to OST and the nine OAs has created gaps in DOT’s
knowledge of program weaknesses that warrant corrective actions. While DOT has taken
measures to close these gaps, they have proven ineffective.

DOT Policy on Timeliness of S&D Decisions Has Been Subject to
Interpretation and Action

DOT’s Order aims to ensure accountability for the Department's S&D Program by
establishing a 45-day deadline for DOT officials to complete all needed tasks to make a
final suspension decision or propose a debarment decision. However, the 45-day S&D
policy has been interpreted differently by officials responsible for suspensions and
debarments in the OAs we reviewed, as shown in the following table.
OA's Varying Interpretation of 45-day Requirement in DOT's S&D Order

OA            Interpretation of goal of the 45-day requirement

FHWA          Divisions are to conduct research and provide an S&D recommendation to FHWA’s
              suspension and debarment officials.

FAA           Headquarters staff are to make a decision after it receives a recommendation and
              supporting information for an S&D action from a FAA regional office.
FTA           Suspend or propose debarment after receiving a referral notification.
Source: OIG analysis of OA practices.

These varying interpretations create opportunities for delays—some significant—and
ultimately put DOT and other Federal agencies and recipients of Federal funds at an
increased risk of awarding contracts and grants to irresponsible parties.

Unreliable EPLS Data Hinders DOT's Ability To Identify Excluded Parties
DOT's contract and grant officials are required to check EPLS before making awards to
ensure that suspended or debarred parties do not receive new contracts or grants. DOT is

                                                                                                 5
required to enter a range of information provided by OAs on excluded parties into EPLS,
including an entity’s DUNS number, 4 enabling agencies to more confidently determine
whether a specific contractor has been excluded. However, data entered into EPLS are
not always accurate or complete, and therefore contracting officers cannot confidently
identify excluded parties. For example, from a universe of 49 suspended or debarred
firms we identified in EPLS, 16 were miscoded by DOT as “individuals,” and 8 were
missing required DUNS numbers. OAs are responsible for providing DUNS numbers;
however, OA representatives said they were not aware of the requirement, or they did not
know how to find the DUNS number.

Other actions not accurately reflected in EPLS included a business that was incorrectly
removed from EPLS by DOT staff and left off for over 2 ½ years, and nine parties were
listed more than once. The importance of DOT providing accurate information to EPLS is
heightened by the fact that the General Services Administration does not verify data
directly provided by agencies.

Incomplete S&D Annual Reports Do Not Help Close Oversight Gaps

DOT is required to prepare an annual report detailing all OA cases in which S&D actions
were considered, initiated, or completed, and the status or outcome of each case. The
annual report was intended to be used as an oversight tool for Office of General Counsel
and OIG to assess OA compliance with the Order. However, past annual reports were
incomplete and inaccurate. For example, the 2008 annual report excluded 53 open cases
from prior years. The 2005, 2006, and 2007 annual reports also excluded required
written justifications documenting why an OA decided not to suspend or debar parties in
nearly half (19 of 40) of the cases. Other problems with these reports included cases with
incorrect action dates, missing referral dates, and duplicate entries. DOT’s Order has not
assigned responsibility to DOT or its OAs for ensuring that annual report information is
accurate, and the failure of DOT and its OAs to pay sufficient attention to detail, such as
verifying data when preparing the annual submissions, contributed to these errors.

SharePoint Use Has Not Improved DOT's Management of S&D Information

DOT replaced its paper-based reporting of S&D cases in 2007 with SharePoint, an
electronic system. According to DOT’s former Senior Procurement Executive,
SharePoint is intended to help OAs track cases on a day-to-day basis, as well as for
management to monitor DOT’s S&D Program. DOT began a SharePoint pilot program
in June 2009 to allow managers to perform keyword queries and generate their own
summary reports. DOT has not yet reported on the results of the pilot.


4
    DUNS numbers are unique nine-digit identification numbers for companies and individuals assigned by Dun &
    Bradstreet, Inc.

                                                                                                           6
Conclusion

The persistent problems we have identified in DOT's S&D Program significantly weaken
one of the Department's strongest deterrents against contract fraud, waste, and abuse.
Despite DOT's 2005 revision to its S&D Order, deficiencies in the S&D Program have
left the Department unable to achieve the desired outcome of having a strong S&D
Program. In our January report, we recommended several actions to strengthen DOT's
internal controls and oversight of its S&D process and to close the significant gaps in the
process. (See exhibit B at end of this statement for a list of our recommendations.) Until
such actions are taken, DOT will continue to risk disbursing billions of dollars, including
ARRA funds, to parties intent on defrauding the Government.

I would like to take this opportunity to thank the Department for its continuing efforts in
reviewing its S&D Order. However, since our comprehensive review of DOT's
suspension and debarment process is ongoing, we do not feel it would be appropriate
to comment on the proposed Order until our formal recommendation follow-up process is
completed.

Mr. Chairman, this concludes my statement. I would be happy to address any questions
you or other Members of the Committee may have.




                                                                                         7
                          EXHIBIT A. SUMMARY OF KEY ELEMENTS OF FEDERAL
                                SUSPENSION AND DEBARMENT POLICIES



                    SUSPENSION ACTIONS                                              DEBARMENT ACTIONS

                                                            Overview
    • Temporarily prevents a party from participating in              • Final determination that party is not presently
        most government funded procurement and                            responsible and thus ineligible to participate
                        a              b
        nonprocurement transactions pending                               in federally funded contracts or grants.
        completion of an investigation or legal
        proceedings.
                                             Standards of Evidence / Causes
    • Adequate evidence that there may be a cause of                  • Preponderance of evidence that party
      debarment; an indictment for criminal conduct                     warrants debarment; a conviction of criminal
      constitutes adequate evidence.                                    conduct or a civil judgment constitutes a
    • Immediate need for action to protect Federal                      preponderance of evidence.
      business interests.                                             • Agency must consider remedial measures
                                                                        and mitigating factors when determining
                                                                        party’s present responsibility.
                               Timeframe for OAs to Take Action under DOT's Order
    • Within 45 days of notification of indictment or                 • Within 45 days of notification of conviction or
        other referral.                                                   other referral.
                                                          Prior Notice
    • None required                                                   • At least 30 days
                                                    Period of Ineligibility
    • Usually not to exceed 1 year                                    • Usually not to exceed 3 years
                                                   Entitlement To Contest
    •    After notice from the agency’s suspension                    •    If a party contests the debarment during the
         official, but a suspension is effective                           notice period, the debarment is not effective
         immediately.                                                      until the suspension and debarment official
                                                                           issues a written decision.

Source: DOT Order 4200.5D, Governmentwide Debarment, Suspension and Ineligibility, 2 CFR, Part 180, OMB
Guidelines to Agencies on Governmentwide Debarment and Suspension (Nonprocurement), FAR, and AMS.
a
    Nonprocurement includes any transaction, other than a procurement contract, including but not limited to grants,
    cooperative agreements, loans, and loan guarantees.
b
    A suspended or debarred party may not participate in “covered transactions.” Covered transactions include contracts, grants,
    cooperative agreements, direct loans or contracts or subcontracts under them. During an assessment the suspending official
    may examine the basic documents, including grants, cooperative agreements, loan authorizations, contracts, and other relevant
    documents are also covered transactions. For DOT, contracts and grants are the most common types of covered transactions.
    As a result, we will use the term “contracts and grants” to refer to all covered transactions.




Exhibit A. Summary of Key Elements of Federal Suspension and Debarment Policies 8
                EXHIBIT B. DOT-OIG SUSPENSION AND DEBARMENT
                           REPORT RECOMMENDATIONS


Recommendations to DOT's Senior Procurement Executive (SPE):

       1. Revise DOT Order 4200.5D, Governmentwide Debarment, Suspension and
          Ineligibility to:

            a. Assign an office oversight responsibility for monitoring DOT’s
               implementation of the S&D Program.

            b. Require that OAs establish implementation procedures for their S&D
               Program roles and responsibilities.

            c. Clarify that OAs are to issue suspension or debarment notices—or make
               a written justification why a suspension or debarment is not warranted
               under the circumstances—within 45 days of notification of a referral.

            d. Require that OAs follow S&D evidence standards provided under
               Federal regulations—an indictment is a sufficient basis by itself for
               suspension, and a civil judgment or conviction is a sufficient basis for
               debarment—and that factors not contemplated by regulations should not
               be considered when determining a party’s present responsibility.

       2. Modify DOT’s SharePoint and establish corresponding internal controls and
          validation processes to:

            a. Ensure the entry of accurate, complete, and timely S&D data, such as
               periodic reconciliations between case files and SharePoint.

            b. Upgrade SharePoint to allow queries and summary reports for the system
               to be used as a management oversight tool and meet the annual report
               requirements.

       3. Improve DOT's internal controls for the entry of accurate, complete, and
          timely S&D information to EPLS, such as periodic reconciliations between
          SharePoint and EPLS.

       4. Require OAs to immediately provide DOT a full inventory of DOT’s open
          S&D cases.




Exhibit B. DOT-OIG Suspension and Debarment Report Recommendations
                                                                                        9
Recommendations to the Federal Aviation Administration (FAA):

       5. Revise FAA’s Procurement Guidance, Debarment and Suspension to:

             a. Assign an office oversight responsibility for monitoring implementation
                of FAA’s S&D Program.

             b. Require the establishment of implementation procedures for their S&D
                Program roles and responsibilities.

             c. Clarify that FAA is to issue suspension or debarment notices—or make a
                written justification why a suspension or debarment is not warranted
                under the circumstances—within 45 days of notification of a referral.

             d. Require adherence to S&D evidence standards provided under Federal
                regulations, namely to (1) suspend parties upon learning of their
                indictment, and (2) debar parties upon learning of their conviction or
                receipt of a civil judgment.

       6. Improve its internal controls for the entry of accurate, complete, and timely
          S&D information to EPLS, such as periodic reconciliations between
          SharePoint and EPLS.




Exhibit B. DOT-OIG Suspension and Debarment Report Recommendations
                                                                                10
